No.

21-5451

In The
Supreme Court of the United States
JOHN M. WASSON
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

ORIGINAL
Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

On petition For A writ Of Certiorari
To The United States Court OfAppeals
For the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
John M. Wasson
pro se
717 W. 27th Ave
Kennewick, WA 99337
503 991-9954
slipperyrocks@outlook.com

Petitioner has previously been granted leave to proceed in forma pauperis in the underlying
case.
Petitioner's affidavit or declaration is not attached because the 9th District Court of Oregon
appointed counsel in the current proceeding on 03/05/2018 (ECF 16 ):
03/05/2018

16 ORDER - Defendant's Motion to Withdraw as Attorney by Michelle Sweet and
Substitute Counsel (ECF F4 ) is GRANTED. Jesse Merrithew is appointed in
place of Michelle Sweet as counsel for Defendant John M. Wasson (1).
Ordered by Judge Michael H. Simon, (mja) (Entered: 03/05/2018)

Respectfully submitted 13 August 2021,,

JOHN M. WASSON, pro se
717 W. 27th Ave
Kennewick, WA 99337
503 991-9954
slippervrocks@outlook.com

